No.

IN THE SUPREME COURT OF THE UNITED STATES

TERRY KENT HOLCOMB, II,
Petitioner,
v.
RICK WHITTEN,
Respondent.
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Julia L. O’Connell
Federal Public Defender
Barry L. Derryberry
(Counsel of Record)
Assistant Federal Public Defender
barry.derryberry@fd.org

May 3, 2021

Office of Federal Public Defender
Northern District of Oklahoma
One West Third Street, Ste. 1225
Tulsa, OK 74103
(918) 581-7656
fax (918) 581-7630
Counsel for Petitioner

CONTENTS

Exhibit 1: United States v. Holcomb, 836 F. App'x 682 (10th Cir. 2020)
(unpublished)
Exhibit 2: Opinion and Order (United States District Court)
Exhibit 3: Summary Opinion (Oklahoma Court of Criminal Appeals)

2

EXHIBIT 1:
United States v. Holcomb, 836 F. App'x 682 (10th Cir. 2020) (unpublished)

Holcomb v. Whitten
United States Court of Appeals for the Tenth Circuit
December 3, 2020, Filed
No. 19-5033
Reporter
836 Fed. Appx. 682 *; 2020 U.S. App. LEXIS 37790 **; 2020 WL 70627 12

TERRY KENT HOLCOMB , II, Petitioner - Appellant, v. RICK WHITTEN, Respondent Appellee.

Notice: PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE
32.1 GOVERNING THE CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] D.C. No. 4:16-CV-00159-TCK-FHM. N.D. Okla.
Holcomb v. Whitten, 2019 U.S. Dist. LEXIS 42720, 2019 WL 1212095 (N.D. Okla., Mar.
14, 2019)

Counsel: For Terry Kent Holcomb, II, Petitioner - Appellant: Barry L. Derryberry, Julia L.
O'Connell, Office of the Federal Public Defender, Northern and Eastern Districts of
Oklahoma, Tulsa, OK.
For Rick Whitten, Respondent - Appellee: Matthew D. Haire, Keeley L. Miller, Office of
the Attorney General for the State of Oklahoma, Litigation Department, Oklahoma City,
OK.

Judges: Before HARTZ, McHUGH, and CARSON, Circuit Judges.

836 Fed. Appx. 682, *682; 2020 U.S. App. LEXIS 37790, **1

Opinion by: Carolyn B. McHugh

Opinion

[*683] ORDER AND JUDGMENT*

Terry Kent Holcomb, II, an Oklahoma prisoner, appeals from the district court's order
denying habeas relief under 28 U.S.C. § 2254. We granted a certificate of appealability
embracing two issues. As to the first issue, we affinn the district court. As to the second,
we vacate the certificate of appealability as improvidently granted.

I. BACKGROUND & PROCEDURAL HISTORY

A. Trial & Direct Appeal

Petitioner Holcomb was tried in Tulsa County District Court on five counts of sexually
abusing his ten-year-old stepdaughter, "N.H." During Holcomb's defense case, the trial
judge refused to permit his expert witnesses to give portions of their opinions. Specifically:
• Dr. Paul Shields, a psychologist and therapist, was not permitted [**2] to tell the jury
that, according to his psychological tests, Holcomb was not likely to be a sex offender;
and
• Dr. Michael Gottlieb, an expert in child abuse investigations, was not pem1itted to tell
the jury that N.H.'s forensic examination lacked the clinical findings one might expect
in light of the abuse alleged.
The jury convicted on all five counts.
On direct appeal, Holcomb argued that the trial court deprived him of his Sixth and
Fourteenth Amendment rights to present a complete defense when it refused to allow Dr.
Shields to offer his opinion regarding Holcomb's propensity to be a sex offender. Holcomb
made no argument about Dr. Gottlieb's testimony. The Oklahoma Court of Criminal
Appeals (OCCA) affinned in full.

• After examining the briefs and appellate record, this panel has detenn ined unanimously that oral argument would not materially assist in the
determination of this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.l(G). The case is therefore ordered submitted without oral
argument. This order and judgment is not binding precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1 and I 0th Cir. R. 32.1.

836 Fed. Appx. 682 , *684; 2020 U.S. App. LEXIS 37790, **2

[*684] B. State Postconviction Proceedings
Following his unsuccessful appeal, Holcomb filed a pro se application for postconviction
relief in the state trial court, raising errors unrelated to the exclusion of Dr. Shields's and
Dr. Gottlieb's testimony. He also generically requested an evidentiary hearing. The state
trial court denied relief on all counts without holding a hearing.
Holcomb, still pro se, appealed to the OCCA. The OCCA affinned.

C. Section 2254 Proceedings in Federal Court
Having exhausted available [**3] state court procedures, Holcomb filed his § 2254
petition in the United States District Court for the Northern District of Oklahoma. An
attorney represented Holcomb in this proceeding.
Holcomb's first claim for relief (Claim One) asserted denial of his right to put on a
complete defense because the trial court "refus[ed] to allow him to put on four key pieces
of evidence." R. vol. 1, ECF No. 2 at 50. 1 Only two of those pieces of evidence remain
relevant to this appeal: (i) "[Holcomb] did not fit a sex offender profile," as Dr. Shields
was prepared to testify; and (ii) "N.E.'s2 physical exam was not consistent with studies of
similar prepubescent children subjected to [the abuse alleged]," on which Dr. Gottlieb was
prepared to testify. Id.
The district court found that Holcomb had never presented the argument regarding Dr.
Gottlieb to the Oklahoma courts. See Holcomb v. Whitten, No.16-CV-0159-TCK-FHM,
2019 U.S. Dist. LEXIS 42720, 2019 WL 1212095, at *4 (N.D. Okla. Mar. 14, 2019). The
court further found that the Oklahoma courts would now refuse to consider the argument
given Holcomb's failure to raise it earlier. 2019 U.S. Dist. LEXIS 42720, [WL] at *4-5.
The court accordingly applied the doctrine of anticipatory procedural bar to "deem [the
argument] procedurally defaulted." 2019 U.S. Dist. LEXIS 42720, [WL] at *5.
The district court then turned to the complete-defense [**4] argument as it relates to Dr.
Shields. Holcomb primarily contended that the OCCA failed to apply relevant Supreme
Court case law. The district court disagreed: "Contrary to [Holcomb's] argument, the
OCCA adjudicated his constitutional claim on the merits despite its failure to cite any
federal law ." 2019 U.S. Dist. LEXIS 42720, [WL] at *6 n.5. The court further found that
the OCCA's reasoning was neither contrary to, nor an unreasonable application of, clearly

1
Volume I of the record is not consecutively paginated. We will cite the district court CM/ECF number, and the page number in the CM/ECF
header.

2 Throughout

the § 2254 petition, Holcomb erroneously refers to N.H. as "N.E."

836 Fed. Appx. 682, *684; 2020 U.S. App. LEXIS 37790, **4

established Supreme Court precedent. 2019 U.S. Dist. LEXIS 42720, [WL] at *7-8. The
court accordingly denied relief on Claim One.
The district court also denied relief on a second claim, concerning ineffective assistance of
appellate counsel (Claim Two). It held that Holcomb had not exhausted Claim Two in state
court, and the claim was subject to anticipatory procedural bar.
The district court then turned to Holcomb's request for an evidentiary hearing. Holcomb
had urged the district court to hear the "live testimony of [his] appellate counsel" when
deciding Claim Two. R. vol. 1, ECF No. 2 at 65. Holcomb also stated, without elaboration,
that "the testimony of Dr. Paul Shields should assist the court," id. , presumably referring to
Claim One. Holcomb said nothing about an evidentiary hearing involving Dr.
Gottlieb. [**5] Regardless, the district court found that an evidentiary hearing was
unnecessary "[b]ecause [Holcomb] procedurally defaulted Claim Two and [the] portion[]
of Claim One [regarding [*685] Dr. Gottlieb] and because § 2254(d) bars relief on the
exhausted portion of Claim One [regarding Dr. Shields]." 2019 U.S. Dist. LEXIS 42720,
2019 WL 1212095, at *10.
Lastly, the district court denied a certificate of appealability (COA).

D. This Court's Certificate of Appealability
Holcomb timely filed a motion with this court for a COA (COA Motion). The motion
argued that the Oklahoma postconviction courts made unreasonable factual findings and
erred in refusing to give him an evidentiary hearing. The motion also attacked the
exclusion of Dr. Shields's and Dr. Gottlieb's testimony. Holcomb described the state trial
court's decisions on these matters as "[b]ased ... on an unreasonable determination of facts
in light of evidence before it." COA Motion at 25. Finally, Holcomb declared himself
"actually innocent," meaning he "should not have had anticipatory bars applied to his
claims." Id. at 25, 26.
This court granted a COA "as to whether the district court erred in denying an evidentiary
hearing on Mr. Holcomb's habeas claim involving improper exclusion of defense
witnesses." Order, [**6] No. 19-5033, at 1 (10th Cir. Nov. 18, 2019). The court also
appointed counsel for Holcomb for the merits stage of the appeal.

II. ANALYSIS

Our COA refers to "improper exclusion of defense witnesses." As the parties recognize,
"defense witnesses" in this context can only refer to Drs. Shields and Gottlieb. Having
further reviewed the matter, we find that our COA inappropriately focuses on whether the

836 Fed. Appx. 682, *685; 2020 U.S. App. LEXIS 37790, **6

district court should have granted an evidentiary hearing. Thus, we must either refom1ulate
or vacate the COA. We conclude that we should refom1ulate the COA as to Dr. Shields but
vacate it as to Dr. Gottlieb.

A. Dr. Shields
1. The Proper Scope of the COA

If evidence was not before the state court, a federal court may not consider it when
answering the question posed by 28 U.S.C. § 2254(d)(l), i.e., was the state court's decision
"contrary to, or ... an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States"? See Cullen v. Pinholster, 563 U.S.
170, 185, 131 S. Ct. 1388, 179 L. Ed. 2d 557 (2011) ("[E]vidence introduced in federal
court has no bearing on§ 2254(d)(l) review. If a claim has been adjudicated on the merits
by a state court, a federal habeas petitioner must overcome the limitation of § 2254(d)(l)
on the record that was before that state court."). [**7]
Here, as it relates to Dr. Shields, the OCCA adjudicated Holcomb's complete-defense
claim on the merits. The district court therefore appropriately asked- without resort to an
evidentiary hearing-whether the OCCA's resolution contradicted or unreasonably applied
clearly established Supreme Court law on complete-defense claims. 3 The district court's
answer was "no." Unless that ruling is [*686] wrong, we have no reason to ask whether
Holcomb met the standard for an evidentiary hearing.
We have discretion to "expand the COA to cover uncertified, underlying constitutional
claims asserted by an appellant." United States v. Shipp, 589 F.3d 1084, 1087 (10th Cir.
2009). We exercise that discretion here. Whether the OCCA appropriately analyzed
Holcomb's complete-defense claim as it relates to Dr. Shields is a matter that "reasonable
jurists could debate," and "deserve[s] encouragement to proceed further." Miller-El v.
Cockrell, 537 U.S. 322, 336, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003) (describing the
standard for granting a COA) (internal quotation marks omitted). We therefore refom1ulate
our COA to encompass that issue. Moreover, although not within the COA as originally
formulated, the parties briefed the merits of the OCCA's disposition, so it is squarely
presented for our review.

3 Contrary

to the COA Motion, a complete-defense claim raises legal issues that a federal habeas court reviews under § 2254(d)(l), not
factual issues that the court reviews under § 2254(d)(2). See Nevada v. Jackson, 569 U.S. 505, 508-09, 133 S. Ct. 1990, 186 L. Ed. 2d 62
(20 13) (per curiam) (applying § 2254(d)(I) to complete-defense claim); Paxton v. Ward, 199 F.3d 1197, 1204, 12 11-1 6 (10th Cir. 1999)
(same). But even if § 2254(d)(2) applies, it explicitly directs the court to conduct its review "in light of the evidence presented in the State
court proceeding." Thus, under (d)(l) or (d)(2), a federal habeas court may not consider evidence that was not before the state court.

836 Fed. Appx. 682, *686; 2020 U.S. App. LEXIS 37790, **7

2. Whether 28 U.S.C. § 2254(d)(l) Requires this Court to Defer to the OCCA's [**8]
Analysis Concerning Dr. Shields's Opinion
We review de novo the district court's ruling that the OCCA neither contradicted nor
unreasonably applied clearly established Supreme Court precedent on the completedefense question. Littlejohn v. Trammell, 704 F.3d 817, 825 (10th Cir. 2013).
"State and federal rulemakers have broad latitude under the Constitution to establish rules
excluding evidence from criminal trials." Holmes v. South Carolina, 547 U.S. 319, 324,
126 S. Ct. 1727, 164 L. Ed. 2d 503 (2006) (brackets and internal quotation marks omitted).
At the same time, "the Constitution guarantees criminal defendants a meaningful
opportunity to present a complete defense." Id. (internal quotation marks omitted). "This
right is abridged by evidence rules that infringe upon a weighty interest of the accused and
are arbitrary or disproportionate to the purposes they are designed to serve." Id. (brackets
and internal quotation marks omitted).
The OCCA understood Holcomb's "Proposition II" on direct appeal to be ra1smg a
complete-defense claim:
We find in Proposition II that Holcomb was not denied the opportunity to present a
meaningful defense. Holcomb argues this decision [to exclude Dr. Shields's opinion
about Holcomb's likelihood of being a sex offender] denied him a meaningful
opportunity to present a complete defense. Summers v. State, 2010 OK CR 5, ,r 62, 231
P.3d 125, 145.
R. vol. [**9] 2a at D45.
Apart from using words like "meaningful defense" and "complete defense," the citation to
the OCCA's Summers decision further demonstrates that the OCCA recognized the nature
of the claim. The cited paragraph from Summers quotes the Supreme Court's Holmes
decision for the principles of a complete-defense claim. Thus, the OCCA understood that
Holcomb asserted a violation of his federal constitutional right to present a complete
defense, and the OCCA indirectly identified Supreme Court case law relevant to
adjudicating that claim.
The rest of the OCCA's analysis of this issue, however, leads us to question whether the
OCCA applied the case law it had identified. That analysis focuses entirely on whether Dr.
Shields's opinion was admissible under Oklahoma's rules of evidence:
Admission of evidence is within the trial court's discretion. Jones v. State, 2009 OK CR
1, ,r 39, 201 P.3d 869, 881. When presenting defense witnesses the defendant must
comply with rules of procedure [*687] and evidence. Simpson v. State, 2010 OK CR
6, ,r 9, 230 P.3d 888, 895. We will not disturb a trial court's ruling excluding witness

836 Fed. Appx. 682, *687; 2020 U.S. App. LEXIS 37790, **9

testimony without a clear showing of abuse and resulting prejudice to the defendant. Id.
The record shows Holcomb wanted his expert to testify that, in his opinion, Holcomb
was not a sex [**10] offender. This would directly invade the province of the jury by
telling jurors what result to reach. Expert opinion testimony is admissible when it helps
jurors understand the facts. 12 O.S.2011 , § 2702 [Oklahoma's equivalent to Fed. R.
Evid. 702]. Expert opinion may, under some circumstances, embrace an ultimate fact,
but may not simply tell the jury what result to reach. Day v. State, 2013 OK CR 8, ,r 11 ,
303 P.3d 291 , 297, r'hng denied[,] 2013 OK CR 15, 316 P.3d 931; Ball v. State, 2007
OK CR 42, ,r 15, 173 P.3d 81, 86. As the evidence was not admissible, the trial court's
refusal to admit it did not deny Holcomb an opportunity to present a meaningful
defense. Simp son, 2010 OK CR 6, ,r 9, 230 P.3d at 895.
Id.

The state argues that, through this reasoning, the OCCA "implicitly found that the
[Oklahoma] evidentiary rule which prohibited the admission of the proffered evidence
served a legitimate purpose and was not disproportionate to the end it promotes." Aplee.
Answer Br. at 28. We are not convinced.
The problem is the OCCA's two citations to its Simpson decision, which frame its analysis.
Simpson says that "[w]hether [the defendant] was denied the right to present a defense
ultimately turns on whether the evidence at issue was admissible." 230 P.3d at 895. This is
essentially the opposite of the Supreme Court's holdings on this issue. The point of the
right to a complete defense (at least this aspect [**11] of it) is that the Constitution
occasionally requires evidence to be admitted even when a rule of evidence would exclude
it. See Holmes, 547 U. S. at 324. Yet, following Simpson, the OCCA analyzed only whether
the trial court made a proper evidentiary ruling, not whether the evidentiary rule itself was
arbitrary or disproportionate to the end it was designed to promote.
In sum, the OCCA correctly labeled the right at stake, but analyzed 1t m a manner
"contrary to ... clearly established Federal law, as determined by the Supreme Court of the
United States." 28 U.S.C. § 2254(d)(l).
3. De Novo Review
This court may "consider [a habeas] petitioner's claim on the merits and without deferring
to the state court's [analysis]" if "either the reasoning or the result of the state-court
decision contradicts [Supreme Court case law]." Panetti v. Quarterman, 551 U.S. 930,
954, 127 S. Ct. 2842, 168 L. Ed. 2d 662 (2007) (internal quotation marks and brackets
omitted; other bracketed insertions added for clarity). Here, the OCCA's reasoning
contradicts Supreme Court case law, so we review Holcomb's complete-defense claim de
novo. This requires us to review Dr. Shields's testimony and the trial court's rulings in
more detail.

836 Fed. Appx. 682, *687; 2020 U.S. App. LEXIS 37790, **11

After establishing his credentials as a licensed marriage and family therapist, Dr. Shields
testified [**12] that Holcomb became one of his counseling patients after being charged
with sexually assaulting N.H. Defense counsel and Dr. Shields then had this exchange:
Q. Now ... as part of your practice, do you generally work with sex offenders?
A. No, I do not.
[*688] Q . ... [W]hen you're dealing with this subject matter of sex offenders or sex
abuse matters, where would your practice typically steer you?
A. Probably about four or five times a year, I will get a call or have a case where a sex
offender is involved. Typically, I will review that, in some cases will evaluate, and
typically will refer them out.
R. vol. 2b at 911. Dr. Shields then testified about receiving trammg to "identify" sex
offenders on "a spectn1m of ... least worst case, to worst worse [sic] case." Id. at 914.
From here to the end of Dr. Shields's testimony, courtroom proceedings cycled through a
pattern of (1) a bench conference, at which the judge and the attorneys would discuss
where Dr. Shields's testimony was headed; (2) a ruling from the judge limiting the
testimony; (3) further testimony from Dr. Shields on the topic of the tests he administers to
prospective patients, as defense counsel probed the limits of the judge's ruling; [**13]
leading to (4) another bench conference. Thus, the judge ruled multiple times on the
admissibility of Dr. Shields's testimony about sex offender testing.
The judge's most detailed ruling came after a bench conference proffer from defense
counsel, where counsel stated that
I think [Dr. Shields] would testify that he evaluates any patient who is- a prospective
patient, rather, that has issues of sex offender issues, he looks at some probabilities, and
then he- as he was starting to describe, he looks at false positives, false negatives,
assumes guilt for the purpose of the evaluation process, and then goes through trying to
eliminate any of those possibilities as being present in that patient before he will work
with them.
And by going through that process, that helps him decide whether to keep the person as
a patient and how to deal with them.
Id. at 945. To this, the trial judge responded,

Well, let me just say it this way; that I'm familiar with psychosexual evaluations in
presentence investigations reports. They're a tool, perhaps, in sentencing and
structuring treatment, but I have not seen nor do I imagine that there is a body of
scientific knowledge that would allow a psychologist or psychiatrist [**14] to testify
based on testing and observation of a propensity or a predictability of sexual offending.

836 Fed. Appx. 682, *688; 2020 U.S. App. LEXIS 37790, **14

Now, that body of research may be out there somewhere, but it's not available in this
trial today.
The other thing is that the jury would likely be inclined to take that opinion, even
though it was just a screening evaluation, as some evidence of probative evidence that
the defendant did not commit the offense. I simply can't allow it.

Id. at 946.
This ruling contains two bases for excluding Dr. Shields's testimony: (1) insufficient
support for the opinion to be given, see Okla. Stat. tit. 12, § 2702(2) (expert testimony
must be "the product of reliable principles and methods"); and (2) invading the province of
the jury. The state does not argue that the trial judge's insufficient-support ruling
independently justifies exclusion. We therefore focus solely on the trial judge's provinceof-the-jury ruling.
Under these circumstances we need not determine whether the rule against invading the
province of the jury was applied in such an arbitrary or disproportionate manner as to
violate Holcomb's [*689] right to present a complete defense. Despite the state's
objections, the jury still heard that Dr. Shields has training to identify sex
offenders, [**15] and that he does not treat sex offenders. Moreover, defense counsel
eventually asked Dr. Shields, without objection, "So, you decided to keep Mr. Holcomb as
a patient, and then began a course of treatment; is that correct?" R. vol. 2b at 937. Dr.
Shields answered, "That's correct." Id. Thus, the jurors heard enough to make the
connection that Dr. Shields-who held himself out as a trained expert in identifying sex
offenders-did not believe that Holcomb was a sex offender. This was the essence of what
counsel sought to present through his offer of proof. Holcomb has not cited a case to us in
which the right to a complete defense was deemed violated when the evidence needed to
support the defense was admitted, just not in the form the defendant preferred. We hold,
then, that the trial court judge did not violate the Constitution by forbidding Dr. Shields
from offering an explicit opinion about Holcomb's likelihood of being a sex offender.
On this basis, we affirm the district court's denial of habeas relief on this issue. 4

B. Dr. Gottlieb
The district court found that Holcomb procedurally defaulted his complete-defense claim
as to Dr. Gottlieb, having never raised it in state court. We have [**16] reviewed the
record and agree that Holcomb never presented his completedefense claim, as it relates to
4 We

do not mean to imply that we would find a complete-defense violation had the judge prevented or struck the testimony we emphasize
above. We simply note that, on this record, the jurors heard enough to draw the inference that Holcomb wanted them to draw, fatally
undermining his complete-defense argument.

836 Fed. Appx. 682, *689; 2020 U.S. App. LEXIS 37790, **16

Dr. Gottlieb, to the Oklahoma courts. Holcomb therefore did not "exhaust[] the remedies
available in the courts of [his] State," 28 U.S.C. § 2254(b)(l)(A), and so there appears to
be no basis for considering an evidentiary hearing as contemplated by our COA.
Perhaps trying to supply us with a legal footing for considering this claim despite the
default, Holcomb invokes the doctrine of actual innocence. "As a gateway, a claim of
actual innocence enables habeas petitioners to overcome a procedural bar in order to assert
distinct claims for constitutional violations." Farrar v. Raemisch, 924 F.3d 1126, 1130
(10th Cir. 2019) (brackets and internal quotation marks omitted), cert. denied sub nom.
Farrar v. Williams, 208 L. Ed. 2d 14, 2020 WL 5882218 (U.S. 2020). Various courts have
held that § 2254's normal limits on evidentiary hearings do not restrict a federal court's
ability to hold an evidentiary hearing to develop the evidence relevant to actual innocence.
See Teleguz v. Pearson, 689 F.3d 322, 331 n.6 (4th Cir. 2012) (citing decisions to this
effect). Holcomb accordingly argues that the district court should have found that Dr.
Gottlieb's excluded testimony, by itself, satisfies the actual innocence standard, or at least
that the district court should have heard Dr. Gottlieb's testimony [**17] as part of deciding
whether to excuse procedural default.
The problem with this argument is that Holcomb never asked the district court to conduct
an actual-innocence inquiry (related to Dr. Gottlieb's testimony or otherwise). 5 "Absent
special circumstances, we [*690] will not reverse on a ground not raised below," Hutton
Contracting Co. v. City of Coffeyville, 487 F .3d 772, 782 (10th Cir. 2007), and we see no
special circumstances here. "Therefore, we need not address the issue." Id.
On rare occasions we have concluded that we should vacate a COA, or part of it, as
improvidently granted. See, e.g., Bowen v. Kansas, 295 F. App'x 260, 265 (10th Cir. 2008);
Hughes v. Beck, 161 F. App'x 797, 800 (10th Cir. 2006) (per curiam). Because we can see
no basis for reaching Holcomb's procedurally defaulted claim as to Dr. Gottlieb, we vacate
the COA as it relates to exclusion of his testimony.

III. CONCLUSION

We affirm the district court's denial of § 2254 relief as to the excluded testimony of Dr.
Shields and vacate the COA as to the excluded testimony of Dr. Gottlieb.
Entered for the Court
Carolyn B. McHugh

5 Holcomb's

§ 2254 petition did not invoke the actual-innocence doctrine. See R. vol. 1, ECF No. 2. The state nonetheless argued against any
actual-innocence exception to procedural default. See id., ECF No. 14 at 22-23, 32. Holcomb still said nothing about acnial innocence in his
reply brief. See id., ECF No. 20.

836 Fed. Appx. 682, *690; 2020 U.S. App. LEXIS 37790, **17

Circuit Judge
End of Document

EXHIBIT 2:
Opinion and Order (United States District Court)

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 1 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 619

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA

TERRY KENT HOLCOMB, II,
Petitioner,
v.
RICK WHITTEN, 1
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 16-CV-0159-TCK-FHM

OPINION AND ORDER
Before the Court is the 28 U.S.C. § 2254 petition for writ of habeas corpus (Dkt. #
2) filed by Petitioner Terry Kent Holcomb, II, a state inmate appearing through counsel.
Petitioner challenges the constitutional validity of the judgment and sentence entered
against him in the District Court of Tulsa County, Case No. CF-2011-754. In that case, a
jury convicted Petitioner of five counts of child sexual abuse, in violation of OKLA. STAT.
tit. 21, § 843.5(E), and fixed punishment at five years in prison and a $500 fine for each
count. The trial court sentenced Petitioner accordingly, and ordered the sentences to be
served consecutively and followed by a three-year term of probation. Petitioner alleges he
is entitled to federal habeas relief because (1) the trial court violated his constitutional right
to present a complete defense by excluding critical evidence and (2) appellate counsel

1

Petitioner is incarcerated at the James Crabtree Correctional Center (JCCC). The
JCCC’s current warden, Rick Whitten, is therefore substituted, in place of Jason Bryant, as
party respondent. See Rule 2(a), Rules Governing Section 2254 Cases in the United States
District Courts. The Clerk of Court shall note this substitution on the record.

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 2 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 620

violated his constitutional right to the effective assistance of counsel by failing to raise a
meritorious double-jeopardy claim. Respondent filed a response in opposition to the
petition (Dkt. # 14), and Petitioner filed a reply (Dkt. # 20). Both parties provided the state
court record (Dkt. ## 3, 14, 15) necessary to adjudicate Petitioner’s claims. 2 For the
reasons that follow, the Court denies Petitioner’s request for an evidentiary hearing, denies
the petition for writ of habeas corpus, and declines to issue a certificate of appealability as
to any issues raised in the petition.
BACKGROUND
In August 2010, Petitioner moved to Tulsa, Oklahoma, with his two children, T.H.
and O.H, and his ex-wife’s daughter, N.H. 3 Tr. vol. 1, at 72, 75; Tr. vol. 3, at 399-401; Tr.

2

Petitioner electronically filed, under seal, an Appendix (Dkt. # 3) that includes all
state court trial transcripts, trial exhibits, and most relevant appellate briefs and orders. The
Court will cite to the Appendix and the page numbers assigned therein as “App. D[page
number].” The trial transcripts will be cited as “Tr. vol. [number], at [page number].”
Recordings will be cited as “App. Rec. [number].” Respondent filed the original record
which consists of two volumes. Dkt. ## 15-1, 15-2. Excerpts from the original record will
be cited as “Dkt. # 15-[number], O.R. vol. [number], at [page number].” For citations to
the original record and any other documents not included in the Appendix, the Court will
use the CM/ECF header page number found in the upper right-hand corner of each
document.
3

Petitioner married N.H.’s mother, F.S., when N.H. was five years old. Tr. vol. 1,
at 74; Tr. vol. 6, at 991. Petitioner filed for divorce in June 2008 after F.S. left Petitioner,
and her three children, to pursue a relationship with another man. Tr. vol. 3, at 393-94; Tr.
vol. 6, at 996-1000. Before or during the divorce proceedings, Child Protective Services
(CPS) in Houston, Texas, substantiated allegations that F.S. neglected all three children
before she abandoned them, but CPS found no evidence to support F.S.’s postabandonment allegations that Petitioner sexually abused N.H. Tr. vol. 6, at 1001-03. F.S.
testified at Petitioner’s trial that she falsely accused Petitioner of sexually abusing N.H. in
Texas. Tr. vol. 3, at 393-94, 427-28. It does not appear that Petitioner formally adopted
N.H.; rather it appears he was named as N.H.’s guardian or conservator after the divorce.
Id. at 429; Tr. vol. 6, at 1004-05.
2

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 3 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 621

vol. 6, at 1007. At the time, N.H. was 10 years old and in the fourth grade. Tr. vol. 1, at
74-80.
Sometime in February 2011, N.H. told two of her friends, S.E. and B.E., that she
and her father “had sex.” Tr. vol. 1, at 80, 91-92, 119-21; Tr. vol. 2, at 161. S.E. told her
mother about N.H.’s disclosure. Tr. vol. 4, at 470, 473-77, 492-94. On February 23, 2011,
S.E.’s mother reported the disclosure to the Department of Human Services (DHS) and to
the counselor at N.H.’s school. Id. at 492-94; Tr. vol. 3, at 315, 317, 342-43. The school
counselor, Bobbie Fields, separately spoke with S.E., B.E., and N.H. Tr. vol. 2, at 154,
163-70. N.H. confirmed that she told S.E. and B.E. that she and her dad “had been having
sex.” Id. at 170-71. N.H. also told Fields that she and her father “had sex sometimes about
once a week,” that “it had only hurt the first time,” and that “he had told her he would have
to stop after she started getting her period anyway because she could get pregnant.” Id. at
171, 174. Fields asked N.H. what she meant by “sex,” and N.H. explained that “he put his
privates in her privates.” Id. at 174-75. Fields contacted DHS and the school resource
officer, David Cotney. Id. at 169, 176, 182-83. Cotney, in turn, contacted the Tulsa Police
Department. Id. at 182-83.
Tulsa Police Officer John West drove to N.H.’s school, took N.H. into protective
custody, and transported her to the Justice Center in Tulsa, Oklahoma. Tr. vol. 2, at 19194. There, David Glanz, a forensic interviewer employed by the Child Abuse Network,
interviewed N.H. Tr. vol. 2, at 191-94, 198-204. That same day, Dr. Mike Baxter, a child
abuse pediatrician, examined N.H. and noted possible injuries to her hymenal tissue. Id.
at 242-43; Tr. vol. 3, at 266-70. On February 28, 2011, N.H. returned to the Justice Center
3

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 4 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 622

for a follow-up examination. Tr. vol. 2, at 270. Dr. Nichole Wallace, a child abuse
pediatrician, examined N.H. and found “nothing abnormal.” Tr. vol. 2, at 235; Tr. vol. 2,
at 267-72.
Based on the forensic interview, the medical examinations and a police
investigation, the State charged Petitioner, in the District Court of Tulsa County, Case No.
CF-2011-754, with five counts of child sexual abuse in violation of OKLA. STAT. tit. 21,
§ 843.5(E). Dkt. # 15-1, O.R. vol. 1, at 39-42. In each count, the State alleged:
[Petitioner] on or about between 7/1/2010 and 2/23/2011, in Tulsa County,
State of Oklahoma and within the jurisdiction of this Court, did commit the
crime of CHILD SEXUAL ABUSE, a Felony, by unlawfully, feloniously,
willfully, maliciously and intentionally, sexually abusing one N.H., a child
under the age of 18, to-wit: 10 years of age, and did then and there sexually
abuse said child by inserting his penis in her vagina. This incident occurred
at 10620 E. 66th St. #167, Tulsa, Tulsa County, Oklahoma, while the child
was under the care and custody of the defendant, who was N.H.’s step-father
residing in the same home with her and therefore a person responsible for her
care.
Id. At the conclusion of a five-day trial, the jury found Petitioner guilty as charged. Tr.
vol. 7, at 1136. On February 19, 2013, the trial court sentenced Petitioner, in accordance
with the jury’s recommendations, to five years imprisonment and a $500 fine for each
conviction.

App. D713-D15.

The trial court ordered the sentences to be served

consecutively and to be followed by a three-year term of probation. Id. at D714.
Represented by counsel, Petitioner filed a timely direct appeal raising four
propositions of error:
I.

The trial court erred by allowing other “bad acts” evidence to be
admitted.

II.

The trial court erred by not allowing defense to present evidence
supporting his defense.
4

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 5 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 623

III.

The [Petitioner] was prejudiced [by] the State’s failure to disclose
evidence in violation of Allen v. District Ct. of Washington Co. and
the Discovery Code.

IV.

The trial court erred by omitting an instruction to the jury regarding
inconsistent statements by N.H.

App. D41. By unpublished summary opinion filed May 22, 2014, in Case No. F-2013197, the Oklahoma Court of Criminal Appeals (OCCA) affirmed Petitioner’s convictions
and sentences. App. D41-D48. Petitioner did not file a petition for writ of certiorari with
the United States Supreme Court. Dkt. # 2, at 7.
Petitioner filed a pro se application for postconviction relief in state district court on
February 9, 2015, raising nine propositions of error:
1) “The trial court impermissibly allowed evidence of other wrongs;”
2) “Prosecutorial misconduct in closing argument deprived the Petitioner of
a fair trial;”
3) “Prosecutorial misconduct in offering perjured testimony from several
witnesses deprived Petitioner of a fair trial;”
4) “Prosecutorial misconduct in improper communications with a defense
witness and ex parte communications with the trial court deprived Petitioner
of a fair trial;”
5) “The trial court erred in allowing perjured testimony to be offered from
several witnesses which deprived the Petitioner of a fair trial;”
6) “Jury instruction regarding punishment did not comply with the statute;”
7) “The trial court did not have jurisdiction over Petitioner;”
8) “Ineffective assistance of appellate counsel;” and
9) “Cumulative error.”
App. D71; see also App. D49-D66 (Petitioner’s application for postconviction relief). The
state district court denied relief by order filed June 1, 2015. App. D67-D76. On September
30, 2015, the OCCA affirmed the denial of postconviction relief. App. D77.
Petitioner filed the instant federal habeas petition on March 23, 2016. Dkt. # 2.
5

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 6 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 624

ANALYSIS
Petitioner seeks federal habeas relief on two grounds. He claims (1) the trial court
violated his rights, under the Sixth and Fourteenth Amendments, to present a complete
defense and (2) appellate counsel’s failure to raise a meritorious double-jeopardy claim
violated his Sixth Amendment right to the effective assistance of counsel. Dkt. # 2, at 41,
54.
I.

Claim One: Right to present a complete defense
Petitioner claims that the State violated his Sixth and Fourteenth Amendment rights

to due process, to present witnesses, and to confront the witnesses against him. Dkt. # 2,
at 41-58. He specifically alleges that
the trial court literally shut down [his] defense by refusing to allow him to
put on four key pieces of evidence: (1) that he did not fit a sex offender
profile, (2) that N.[H.]’s forensic interview was inconsistent with a child that
has been sexually traumatized, (3) that N.[H.]’s physical exam was not
consistent with studies of similar prepubescent children subjected to vaginal
penetration for a prolonged period of time, and (4) that N.[H.]’s diary was
inconsistent with a child that was being sexually traumatized.
Id. at 50.
Respondent contends that portions of Claim One are unexhausted and should be
deemed procedurally defaulted, and that 28 U.S.C. § 2254(d) bars habeas relief on the
exhausted portion of Claim One. Dkt. # 14, at 5-24.
A.

Petitioner procedurally defaulted portions of Claim One
1.

Exhaustion

The Court agrees with Respondent that Claim One is only partially exhausted
because it is significantly broader than the claim Petitioner presented in state court. Dkt. #
6

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 7 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 625

14, at 5. Before seeking federal habeas relief, a state prisoner must exhaust available state
remedies, 28 U.S.C. § 2254(b)(1)(A), by “fairly present[ing] the substance of his federal
habeas claim to state courts,” Hawkins v. Mullin, 291 F.3d 658, 668 (10th Cir. 2002). The
substance of a federal claim “includes not only the constitutional guarantee at issue, but
also the underlying facts that entitle a petitioner to relief.” Jeremy Williams v. Trammell,
782 F.3d 1184, 1210 (10th Cir. 2015) (Jeremy Williams). The AEDPA’s exhaustion
requirement “is designed to give the state courts a full and fair opportunity to resolve
federal constitutional claims before those claims are presented to the federal courts.”
O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999). To further that design, the claim
presented in state court “must be the ‘substantial equivalent’ of its federal habeas
counterpart.” Grant v. Royal, 886 F.3d 874, 891 (10th Cir. 2018) (quoting Picard v.
Connor, 404 U.S. 270, 278 (1971)), cert. denied sub nom. Grant v. Carpenter, No. 186713, 2019 WL 177713 (U.S. Jan. 14, 2019); see also Bland v. Sirmons, 459 F.3d 999,
1011 (10th Cir. 2006) (explaining that a habeas “petitioner cannot assert entirely different
arguments from those raised before the state court”).
As evidenced by Petitioner’s state appellate brief (App. D30-D33), Petitioner
claimed in state court that the trial court violated his Sixth and Fourteenth Amendment
rights to present a complete defense by excluding proffered opinion testimony from one
expert witnesses: Dr. Paul Shields, a licensed marriage and family therapist who provided
counseling to Petitioner after his arrest. Petitioner argued in state court, and reasserts in
Claim One, that the trial court should have permitted Shields to testify that he evaluated
Petitioner and determined that Petitioner “did not fit a sex offender profile.” Dkt. # 2, at
7

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 8 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 626

53-54; see also Tr. vol. 6, at 944-45 (offer of proof made in trial court); App. D31 (stating
in state appellate brief that “Shields was prepared to testify at trial that his test results
indicated that the [Petitioner] is not a sex offender” and asserting that “[d]enying the
admission of Dr. Shield’s [sic] opinion was error”).
But Petitioner’s state appellate brief did not mention the remaining portions of
Claim One—i.e., the portions alleging that the trial court violated Petitioner’s
constitutional right to present a defense by erroneously excluding expert testimony relating
to (1) N.H.’s lack of emotion during the forensic interview, (2) the results of her physical
examinations, and (3) the contents of her diary. See App. D30-D33.
In his reply brief, Petitioner argues that he exhausted these portions of Claim One
because (1) “the issue [presented in state court] was not limited to whether the psychologist
should testify whether Petitioner fit a sex offender profile, but to any opinion the expert
may have had based on ‘a reliable basis of knowledge and experience of his discipline,’”
and (2) the habeas petition merely asserts additional facts from the record to support the
“same claim” he raised in state court. Dkt. # 20, at 18-19, 35-36. Neither argument is
persuasive. First, as just discussed, Petitioner’s state appellate brief focused solely on the
exclusion of Shields’ opinion that Petitioner did not fit the profile of a sex offender. App.
D30-D33. Petitioner’s argument to the contrary is directly contradicted by the record.
Second, “[w]hile a habeas petitioner might still be able to present to a federal habeas court
‘bits of evidence’ not previously presented in state court, he cannot first present evidence
in a federal habeas proceeding that ‘places the claims in a significantly different legal
posture’ without first presenting that evidence in state court.” Hawkins, 291 F.3d at 670
8

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 9 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 627

(quoting Demarest v. Price, 130 F.3d 922, 932 (10th Cir. 1997)). Here, Petitioner does not
merely present new “bits of evidence” to support his claim that he was denied his
constitutional right to present a defense based on the exclusion of Shields’ proffered
testimony. Instead, he seeks to expand his claim by alleging three additional evidentiary
errors—each of which rely on discrete sets of substantive and procedural facts—that were
not presented in state court proceedings. Dkt. # 2, at 45-53. Petitioner’s argument that his
state claim and habeas claim are the “same” is thus unavailing. See Grant, 886 F.3d at 891
(“To satisfy exhaustion, then, the habeas petition’s focus—as well as the alleged error that
it identifies—cannot depart significantly from what the petitioner had presented to the state
court.”). For these reasons, the Court finds that Claim One is partially unexhausted.
2.

Anticipatory procedural bar

The Court further agrees with Respondent that it is appropriate to apply an
anticipatory procedural bar and deem the unexhausted portions of Claim One procedurally
defaulted. Dkt. # 14, at 20-23. As a general rule, “a federal court should dismiss
unexhausted claims without prejudice so that the [prisoner] can pursue available state-court
remedies.” Grant, 886 F.3d at 891-92 (quoting Bland, 459 F.3d at 1012). However,
dismissal of unexhausted claims “is not appropriate if the state court would now find the
claims procedurally barred on independent and adequate state procedural grounds.” Id. at
892 (quoting Smallwood v. Gibson, 191 F.3d 1257, 1267 (10th Cir. 1999)). Rather, any
unexhausted claims that the state court would find procedurally barred, should the prisoner
return to state court to exhaust them, are subject to an anticipatory procedural bar and are
procedurally defaulted for purposes of federal habeas review. Id.; see also Anderson v.
9

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 10 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 628

Sirmons, 476 F.3d 1131, 1139 n. 7 (10th Cir. 2007) (defining anticipatory procedural bar).
The record demonstrates that Petitioner did not raise the unexhausted portions of
Claim One either on direct appeal (App. D30-D33) or in his first application for
postconviction relief (App. D71). As Respondent argues, the OCCA routinely applies a
procedural bar to claims not raised either on direct appeal or in a first application for
postconviction relief unless the petitioner provides “sufficient reason” for his failure to
raise the claim in an earlier proceeding. Dkt. # 14, at 20; see OKLA. STAT. tit. 22, § 1086
(2019); Moore v. State, 889 P.2d 1253, 1255-56 (Okla. Crim. App. 1995). Oklahoma’s
practice of imposing a procedural bar when claims are first raised in a second application
for postconviction relief is an independent and adequate state procedural rule that bars
habeas review. Hawkins, 291 F.3d at 670; see also Duvall v. Reynolds, 139 F.3d 768, 79697 (10th Cir. 1998) (explaining that state procedural rule is independent if it is grounded
only in state law and adequate if state courts regularly apply the rule to all similar claims).
Because the Court finds it would be futile for Petitioner to return to state court and
attempt to exhaust the unexhausted portions of Claim One, the Court deems those portions
of Claim One procedurally defaulted.
3.

Showings necessary to overcome procedural default

When a federal court applies an anticipatory procedural bar to an unexhausted
federal claim, federal habeas review of that claim is barred unless the prisoner can show
“cause for the default and actual prejudice as a result of the alleged violation of federal
law” or that a “fundamental miscarriage of justice” will result if the court does not review
the claim. Coleman v. Thompson, 501 U.S. 722, 750 (1991).
10

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 11 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 629

In response to Respondent’s argument that he procedurally defaulted portions of
Claim One, Petitioner fails to argue, let alone demonstrate, that he can make the showings
necessary to overcome the procedural default. See Dkt. # 20, generally. 4 Rather, he
maintains that Claim One is fully exhausted. Id. at 18-19, 35-36. For the reasons
previously discussed, that argument is contrary to the record. See supra pp. 6-9.
4.

Conclusion

Based on the foregoing, the Court concludes that Petitioner failed to exhaust those
portions of Claim One alleging that the trial court violated his constitutional right to present
a defense by erroneously excluding expert testimony relating to (1) N.H.’s lack of emotion
during the forensic interview, (2) the results of her physical examinations, and (3) the
contents of her diary. The Court further concludes that it is appropriate to apply an
anticipatory bar to deem these portions of Claim One procedurally defaulted and that
Petitioner fails to make the showings necessary to overcome the procedural default. Thus,
the Court denies habeas relief as to these portions of Claim One.
B.

Exclusion of Dr. Shields’ opinion testimony

Petitioner properly exhausted the portion of Claim One alleging that the trial court
violated his constitutional right to present a complete defense by refusing to allow one of

4

In his reply brief, Petitioner does assert that he can show cause and prejudice to
excuse the procedural default of Claim Two, his ineffective-assistance-of-appellatecounsel claim. See Dkt. # 20, at 15-18, 37-44. It is not entirely clear whether he intended
to confine his “cause and prejudice” arguments solely to Claim Two. See id. Regardless,
for the reasons discussed in Section II.C. of this opinion, see supra pp. 21-24, the Court
finds Petitioner cannot make the necessary showings to overcome the procedural default
of any of his unexhausted claims.
11

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 12 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 630

Petitioner’s expert witnesses, Dr. Paul Shields, to testify that in his opinion Petitioner did
not fit the profile of a sex offender. Dkt. # 2, at 53-54; see also Tr. vol. 6, at 945; App.
D31 (“Shields was prepared to testify at trial that his test results indicated that the
[Petitioner] is not a sex offender”). The OCCA adjudicated this claim on the merits and
rejected it. App. D45. In determining that Petitioner “was not denied the opportunity to
present a meaningful defense,” the OCCA reasoned:
Admission of evidence is within the trial court’s discretion. Jones v. State,
2009 OK CR 1, ¶ 39, 201 P.3d 869, 881. When presenting defense witnesses
the defendant must comply with rules of procedure and evidence. Simpson
v. State, 2010 OK CR 6, ¶ 9, 230 P.3d 888, 895. We will not disturb a trial
court’s ruling excluding witness testimony without a clear showing of abuse
and resulting prejudice to the defendant. Id. The record shows [Petitioner]
wanted his expert to testify that, in his opinion, Holcomb was not a sex
offender. This would directly invade the province of the jury by telling jurors
what result to reach. Expert opinion testimony is admissible when it helps
jurors understand the facts. 12 O.S. 2011, § 2702. Expert opinion may,
under some circumstances, embrace an ultimate fact, but may not simply tell
the jury what result to reach. Day v. State, 2013 OK CR 8, ¶ 11, 303 P.3d
291, 297, r’hng denied 2013 OK CR 15, 316 P.3d 931; Ball v. State, 2007
OK CR 42, ¶ 15, 173 P.3d 81, 86. As the evidence was not admissible, the
trial court’s refusal to admit it did not deny [Petitioner] an opportunity to
present a meaningful defense. Simpson, 2010 OK CR 6, ¶ 9, 230 P.3d at 895.
App. D45.
Petitioner appears to argue that the OCCA either failed to apply any federal law or
unreasonably applied clearly established federal law when it rejected his constitutional
claim. Dkt. # 2, at 58; Dkt. # 20, at 18-28.
Respondent contends that Petitioner cannot make the requisite showings under
§ 2254(d) to obtain habeas relief on the exhausted portion of Claim One. Dkt. # 14, at 1120.

12

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 13 of 26
Appellate Case: 19-5033

1.

Document: 010110162059

Date Filed: 05/01/2019

Page: 631

Merits adjudication

Because the OCCA adjudicated this portion of Claim One on the merits, 28 U.S.C.
§ 2254(d) limits this Court’s review. 5 When a state court adjudicates the merits of a
prisoner’s federal claim, a federal court may grant habeas relief only if the prisoner
demonstrates that the state court’s adjudication of the claim either “resulted in a decision
that was contrary to, or involved an unreasonable application of, clearly established Federal
law,” 28 U.S.C. § 2254(d)(1), 6 or “resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding,
id. § 2254(d)(2).
To analyze a claim subject to review under § 2254(d), the federal court must “first
determine whether the petitioner’s claim is based on clearly established federal law,
focusing exclusively on Supreme Court decisions.” Hanson v. Sherrod, 797 F.3d 810, 824

5

In his petition and reply brief, Petitioner vigorously argues that his claim is not
subject to review under § 2254(d) because the OCCA “did not address the constitutional
arguments raised,” Dkt. # 2, at 58, and “made specific reference to no federal law at all,”
Dkt. # 20, at 21; see also id. at 9-15, 21-28 (generally arguing that AEDPA deference does
not apply). Contrary to Petitioner’s argument, the OCCA adjudicated his constitutional
claim on the merits despite its failure to cite any federal law. See Mitchell v. Esparza, 540
U.S. 12, 16 (2003) (reiterating that “a state court need not even be aware of [Supreme
Court] precedents, ‘so long as neither the reasoning nor the result of the state-court decision
contradicts them’” (quoting Early v. Packer, 537 U.S. 3, 8 (2002)); Miller v. Mullin, 354
F.3d 1288, 1292-93 (10th Cir. 2004) (applying § 2254(d) “notwithstanding the [OCCA’s]
failure to cite or discuss federal case law”). Thus, § 2254(d) guides this Court’s review.
6

As used in § 2254(d)(1), the phrase “clearly established Federal law” means “the
governing legal principle or principles” stated in “the holdings, as opposed to the dicta, of
[the United States Supreme Court’s] decisions as of the time of the relevant state-court
decision.” Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003) (quoting Terry Williams v.
Taylor, 529 U.S. 362, 412 (2000) (Terry Williams)).
13

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 14 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 632

(10th Cir. 2015). “The absence of clearly established federal law is dispositive under
§ 2254(d)(1).” House v. Hatch, 527 F.3d 1010, 1018 (10th Cir. 2008). Thus, “only if [a
federal court] answer[s] affirmatively the threshold question as to the existence of clearly
established federal law, may [the court] ask whether the state court decision is either
contrary to or an unreasonable application of such law.” Id.
A state court decision is “contrary to” Supreme Court precedent “only if ‘the state
court applies a rule that contradicts the governing law set forth in [Supreme Court] cases
or if the state court confronts a set of facts that are materially indistinguishable from a
decision of [the Supreme Court] and nonetheless arrives at a [different] result.’” Hanson,
797 F.3d at 824 (alterations in original) (quoting Bland, 459 F.3d at 1009). “A state court
decision unreasonably applies federal law if ‘the state court identifies the correct governing
legal principle from [Supreme Court] decisions but unreasonably applies that principle to
the facts of the prisoner’s case.’” Id. at 824-25 (alterations in original) (quoting Bland, 459
F.3d at 1009). The standards set forth in § 2254(d) are “highly deferential.” Davis v.
Ayala, 135 S. Ct. 2187, 2198 (2015). Thus, “when the last state court to decide a prisoner's
federal claim explains its decision on the merits in a reasoned opinion. . . . a federal habeas
court simply reviews the specific reasons given by the state court and defers to those
reasons if they are reasonable. Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018).
2.

Clearly established federal law

Both parties primarily identify Holmes v. South Carolina, 547 U.S. 319 (2006), as
the clearly established federal law governing Petitioner’s claim. Dkt. # 2, at 58; Dkt. # 14,
at 13. In Holmes, the Supreme Court stated the well-established proposition that “the
14

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 15 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 633

Constitution guarantees criminal defendants ‘a meaningful opportunity to present a
complete defense.’” 547 U.S. at 324 (quoting Crane v. Kentucky, 476 U.S. 683, 690
(1986)). But the Holmes Court also reiterated that this right is not absolute; rather, “[S]tate
and federal rulemakers have broad latitude under the Constitution to establish rules
excluding evidence from criminal trials.” Id. (alteration in original) (quoting United States
v. Scheffer, 523 U.S. 303, 308 (1998)); see also Taylor v. Illinois, 484 U.S. 400, 410 (1988)
(“The accused does not have an unfettered right to offer testimony that is incompetent,
privileged, or otherwise inadmissible under standard rules of evidence.”); Chambers v.
Mississippi, 410 U.S. 284, 295 (1973) (identifying a criminal defendant’s rights to confront
and cross-examine witnesses as “fundamental” trial rights but acknowledging those rights
are “not absolute and may, in appropriate cases, bow to accommodate other legitimate
interests in the criminal trial process”).

As the Holmes Court stated, “While the

Constitution thus prohibits the exclusion of defense evidence under rules that serve no
legitimate purpose or that are disproportionate to the ends that they are asserted to promote,
well-established rules of evidence permit trial judges to exclude evidence if its probative
value is outweighed by certain other factors such as unfair prejudice, confusion of the
issues, or potential to mislead the jury.” 547 U.S. at 326.
3.

§ 2254(d) bars habeas relief

For several reasons, the Court agrees with Respondent that § 2254(d) bars habeas
relief on the exhausted portion of Claim One. First, Petitioner cannot demonstrate that the
OCCA’s decision is “contrary to” clearly established federal law on the basis that the
OCCA “applie[d] a rule that contradicts” the rules set forth in governing Supreme Court
15

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 16 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 634

cases. See Hanson, 797 F.3d at 824. Instead, it is clear from the OCCA’s decision that the
OCCA identified and applied the legal principles set forth in Holmes and other Supreme
Court precedent in determining that Petitioner was not deprived of his right to present a
complete defense when the trial court excluded Shields’ proffered expert opinion that
Petitioner was not a sex offender. App. D45.
Second, Petitioner cannot show that the OCCA’s decision is “contrary to” clearly
established federal law on the basis that the OCCA “confront[ed] a set of facts that are
materially indistinguishable from” a Supreme Court decision and nevertheless reached a
different result. See Hanson, 797 F.3d at 824. Petitioner cites several Supreme Court cases
which, like Holmes, set forth general principles governing a criminal defendant’s right to
present evidence and witnesses. Dkt. # 2, at 46-58; Dkt. # 20, at 18-36. But Petitioner fails
to cite any Supreme Court precedent squarely addressing a constitutional challenge to the
exclusion of an expert opinion that a criminal defendant accused of child sex crimes does
not fit the profile of a sex offender. See id. Petitioner instead primarily argues that the
OCCA’s decision is contrary to state court and federal circuit court decisions involving the
exclusion of expert testimony. See id. at 51-54; Dkt. # 20, at 23-33. Specifically, he relies
on federal circuit cases to assert that Shields’ testimony should have been admitted because
it “was ‘categorically different’ from any other evidence the Petitioner was capable of
presenting and that admission of such evidence “is indeed common in [child sexual abuse]

16

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 17 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 635

cases.” Dkt. # 2, at 52-54. 7 But even if lower federal courts establish specific rules or
adopt specific practices regarding the admission of expert testimony in child sexual abuse
cases, Petitioner does not argue, let alone show, that the Supreme Court has established
any such rules. Lower federal courts may not “refine or sharpen a general principle of
Supreme Court jurisprudence into a specific legal rule that [the Supreme] Court has not
announced.” Lopez v. Smith, 135 S. Ct. 1, 4 (2014) (per curiam) (quoting Marshall v.
Rodgers, 569 U.S. 58, 64 (2013)). As a result, to the extent Petitioner argues the OCCA’s
decision is “contrary to” clearly established federal law, the Court rejects that argument.
Third, Petitioner fails to persuasively argue that the OCCA’s ruling is incorrect,
much less that it is objectively unreasonable. See Schriro v. Landrigan, 550 U.S. 465, 473
(2007) (“The question under AEDPA is not whether a federal court believes the state
court’s determination was incorrect but whether that determination was unreasonable—a
substantially higher threshold.”); Yarborough v. Alvarado, 541 U.S. 652, 665 (2004)

7

For example, Petitioner cites Kittelson v. Dretke, 426 F.3d 306 (5th Cir. 2005), for
the proposition that “expert testimony relating to a defendant’s sex offender profile [is] a
commonly-recognized area of expertise routinely admitted at federal trials.” Dkt. # 20, at
28; see also id. at 54. Even if a decision from the United States Court of Appeals for the
Fifth Circuit were relevant to the § 2254(d) analysis, which it is not, Kittelson lacks any
persuasive value because it did not address the question that was before the OCCA—i.e.,
the admissibility of opinion testimony regarding whether a criminal defendant charged with
child sexual abuse fits the profile of a sex offender. In Kittleson, the Fifth Circuit
mentioned, in passing, that a “psychiatrist, Dr. Quijano, testified that Kittelson did not fit
the profile of a sex offender.” 426 F.3d at 312. But the Fifth Circuit did not analyze
whether the psychiatrist’s testimony was properly or improperly admitted because that
question was not before the court. See id. at 314-15 (identifying issues included in
certificate of appealability). Petitioner also cites decisions from the Sixth, Ninth and Tenth
Circuit. Dkt. # 2, at 51-54; Dkt. # 20, at 23-33. Even accepting Petitioner’s view that some
of these cases are factually similar, none of these cases constitutes clearly established
federal law for purposes of the § 2254(d) analysis. Andrade, 538 U.S. at 71-72.
17

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 18 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 636

(“Relief is available under § 2254(d)(1) only if the state court's decision is objectively
unreasonable.”). As discussed, the legal principles governing Petitioner’s federal claim are
general, not specific.

Significantly, “evaluating whether a rule application was

unreasonable requires considering the rule’s specificity. The more general the rule, the
more leeway courts have in reaching outcomes in case-by-case determinations.” Alvarado,
541 U.S. at 664. Here, the OCCA applied general legal principles from Supreme Court
precedent and reasoned that, under the facts of this case, Shields’ expert opinion that
Petitioner—who was charged with five counts of child sexual abuse—was not a sex
offender would invade the province of the jury and, therefore, was inadmissible and
properly excluded. Id. Having reviewed the trial transcripts, the trial court’s evidentiary
ruling, the OCCA’s opinion, and relevant case law, the Court finds nothing objectively
unreasonable about the OCCA’s application of the clearly established federal law that
governs Petitioner’s claim.
For these reasons, the Court concludes that Petitioner cannot show that the OCCA’s
ruling “was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.” 8

8

In his reply brief, Petitioner asserts that “[n]o fairminded jurist would have reached
the decision rendered by the OCCA in this case.” Dkt. # 20, at 28. But it appears that
fairminded jurists from a number of jurisdictions have reached the same decision as the
OCCA on the very issue Petitioner presents in Claim One. See State v. Walker, 433 P.3d
202, 214-15 (Mont. 2018) (noting “that other jurisdictions almost universally reject the
introduction of expert testimony regarding whether a defendant fits a sexual offender
profile” and citing cases from 11 state courts and one federal circuit court). This further
supports the objective reasonableness of the OCCA’s decision.
18

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 19 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 637

Harrington v. Richter, 562 U.S. 86, 103 (2011). The Court therefore denies habeas relief
on the exhausted portion of Claim One.
II.

Claim Two: Ineffective assistance of appellate counsel
Petitioner claims he was deprived of his Sixth Amendment right to the effective

assistance of appellate counsel. Dkt. # 2, at 59-65. He specifically alleges that appellate
counsel failed to argue on direct appeal that “the ‘carbon-copy’ five count Information
containing identical language in each of the counts violated [his] right to notice and his
right to be protected against double jeopardy.” Id. at 60. Petitioner asserts that he raised
this claim in state postconviction proceedings. Id. at 65.
Respondent, however, contends that Claim Two is unexhausted because it is
“distinctly different” from the ineffective-assistance-of-appellate-counsel claim Petitioner
presented in state postconviction proceedings. Dkt. # 14, at 24-29. Respondent further
contends that because the OCCA would likely deem this claim procedurally barred if
Petitioner returned to state court and raised it in a successive postconviction application,
the Court should apply an anticipatory procedural bar and deem Claim Two procedurally
defaulted. Id. at 29-32.
A.

Exhaustion

The Court agrees with Respondent that Claim Two is unexhausted. As previously
discussed, to properly exhaust a federal claim, the claim presented in state court must be
the “substantial equivalent” of the claim presented in the habeas petition. Grant, 886 F.3d
at 891. Petitioner did assert an ineffective-assistance-of-appellate-counsel claim in his
application for postconviction relief. App. D71. But, as Respondent argues, Petitioner
19

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 20 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 638

claimed in state court that appellate counsel was ineffective for failing to present the issues
identified in the first seven propositions of his application for postconviction relief. App.
D62-D63.

None of the first seven propositions alleged the double-jeopardy claim

Petitioner identifies in Claim Two. See id. at D49-D66. Petitioner did assert, in his seventh
proposition, that the trial court “did not have jurisdiction over [him].” Id. at D61. Petitioner
specifically asserted that the trial court lacked jurisdiction because
The Information charges the Defendant with incidents occurring
between 7/1/2010 and 2/23/2011 in Tulsa County, State of Oklahoma;
however, Defendant did not move to the State of Oklahoma until August of
2010. Furthermore, the varying testimony given by the alleged victim, N.H.,
described events occurring in their home in Houston, TX. Clearly the Court
would not have jurisdiction over any alleged events in Houston, TX.
Id.
In contrast to the jurisdictional claim he presented in state court, Petitioner contends
in Claim Two that appellate counsel was ineffective for failing to challenge the trial court’s
jurisdiction on the basis that the charging document’s use of identical language in each of
the five counts against him violated his right to notice and his right to be protected against
double jeopardy. Dkt. # 2, at 60-65.
Consequently, the Court agrees with Respondent that the ineffective-assistance-ofappellate-counsel claim Petitioner raises in Claim Two is not the same claim he presented
in state court proceedings. Thus, Claim Two is unexhausted. See Smallwood, 191 F.3d at
1267 (finding petitioner failed to exhaust ineffective-assistance-of-counsel claim when
“petitioner raised an ineffective assistance of counsel claim on direct appeal, [but] based it
on different reasons than those expressed in his habeas petition.”).

20

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 21 of 26
Appellate Case: 19-5033

B.

Document: 010110162059

Date Filed: 05/01/2019

Page: 639

Anticipatory procedural bar

The Court further agrees with Respondent that Claim Two is subject to an
anticipatory procedural bar and should be deemed procedurally defaulted because, should
Petitioner attempt to return to state court to exhaust it now, the state courts likely would
find that claim procedurally barred. See Anderson, 476 F.3d at 1139 n.7; OKLA. STAT. tit.
22, § 1086 (generally barring postconviction relief for claims not raised in first
postconviction application); Moore, 889 P.2d at 1255-56.
C.

Cause and prejudice

As previously discussed, when a state prisoner procedurally defaults his federal
claim, federal habeas review of that claim is barred unless the prisoner can show “cause
for the default and actual prejudice as a result of the alleged violation of federal law” or
that a “fundamental miscarriage of justice” will result if the court does not review the claim.
Coleman, 501 U.S. at 750.
Petitioner does not invoke the miscarriage-of-justice exception.

Instead, he

contends he can demonstrate “cause and prejudice” to overcome the procedural default of
Claim Two. Dkt. # 20, at 15-18, 37-43. The cause standard requires a showing “that some
objective factor external to the defense” prevented a habeas petitioner from complying with
state procedural rules. Murray v. Carrier, 477 U.S. 478, 488 (1986). In addition to cause,
the prisoner must establish “‘actual prejudice’ resulting from the errors of which he
complains.” United States v. Frady, 456 U.S. 152, 168 (1982). If a prisoner fails to
demonstrate cause, the federal court need not consider whether the petitioner can
demonstrate prejudice. Klein v. Neal, 45 F.3d 1395, 1400 (10th Cir. 1995).
21

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 22 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 640

For the reasons that follow, the Court finds that Petitioner cannot establish cause to
overcome the procedural default of Claim Two. First, Petitioner appears to contend that
“cause” for the procedural default rests, in part, on the fact that the State did not provide
him with postconviction counsel. Dkt. # 20, at 37, 39-43. But this does not demonstrate
“cause” because Petitioner has “no constitutional right to an attorney in state postconviction proceedings.” Coleman, 501 U.S. at 752; see also Quintana v. Hansen, 733 F.
App’x 439, 444 (10th Cir. 2018) (unpublished) 9 (rejecting habeas petitioner’s argument
that Colorado’s failure to appoint postconviction counsel supported “cause” to excuse
procedural default), cert. denied, 139 S. Ct. 334 (2018).
Second, and relatedly, Petitioner contends the Supreme Court’s ruling in Martinez
v. Ryan, 566 U.S. 1 (2012), permits him to overcome the procedural default. Petitioner
asserts, “Under the recent ruling in Martinez . . . the State’s failure to provide Petitioner
with counsel who would have been able to identify [the double-jeopardy claim] was the
cause that the claim was not properly presented in Petitioner’s post-conviction
application.” Dkt. # 20, at 42-43 (emphasis in original). In Coleman, the Supreme Court
held, as a general rule, that ineffective assistance of postconviction counsel “does not
qualify as cause to excuse a procedural default” because there is no constitutional right to
postconviction counsel. See Davila v. Davis, 137 S. Ct. 2058, 2062 (2017) (citing
Coleman, 501 U.S. 722). In Martinez and Trevino v. Thaler, 569 U.S. 413 (2013), the
Supreme Court carved out a “narrow exception to Coleman’s general rule.” Davila, 137

9

The Court cites this unpublished decision as persuasive, rather than precedential,
authority. See Fed. R. App. P. 32.1(a); 10th Cir. R. 32.1(A).
22

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 23 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 641

S. Ct. at 2062. “That exception treats ineffective assistance by a prisoner’s state
postconviction counsel as cause to overcome the default of a single claim—ineffective
assistance of trial counsel—in a single context—where the State effectively requires a
defendant to bring that claim in state postconviction proceedings rather than on direct
appeal.” Id. at 2062-63. But Davila expressly refused to extend the Martinez exception to
cases involving the procedural default of an ineffective-assistance-of-appellate counsel
claim. Id. at 2063. The Davila Court reasoned that because such claims “necessarily must
be heard in collateral proceedings, where counsel is not constitutionally guaranteed,” the
“equitable concerns raised in Martinez do not apply.” Id. at 2068; see id. (explaining that
the concerns in Martinez and Trevino involved choices made by states which either
expressly or effectively required ineffective-assistance-of-trial-counsel claims to be raised
on collateral review instead of through the direct appeal process). Petitioner’s argument
for application of the Martinez exception in this case is not entirely clear. Regardless, for
two reasons, Petitioner cannot rely on Martinez to overcome the procedural default of
Claim Two. First, Petitioner appeared pro se in state postconviction proceedings and
cannot bring an ineffective-assistance-of-counsel claim against himself. Second, even
disregarding Petitioner’s lack of postconviction counsel, the Martinez exception, as
confined by Davila, would not allow Petitioner to overcome the procedural default of the
ineffective-assistance-of-appellate-counsel claim he raises in Claim Two.
Third, and lastly, Petitioner suggests the “cause” for his procedural default of Claim
Two stems from his pro se status in state postconviction proceedings, his lack of “training
in legal process or procedures,” his difficulties in obtaining trial transcripts, and his lack of
23

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 24 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 642

sufficient access to a law library and adequate legal resources. Dkt. # 20, at 41. But these
factors, most of which are not external to the defense, are insufficient to establish cause for
his procedural default of Claim Two. See, e.g., Steele v. Young, 11 F.3d 1518, 1522 (10th
Cir. 1993) (“[Petitioner’s] status as a pro se petitioner and his deficiencies in reading and
writing skills are not external factors that prevented [petitioner] or his counsel from raising
the double jeopardy issue on direct appeal.”); Rodriguez v. Maynard, 948 F.2d 684, 688
(10th Cir. 1991) (citing cases and concluding habeas petitioner’s “pro se status and his
corresponding lack of awareness and training on legal issues [did] not constitute adequate
cause” to excuse the procedural default of his claims).
For these reasons, the Court finds that Petitioner fails to make the necessary
showings to overcome the procedural default of Claim Two.
D.

Conclusion

Petitioner failed to exhaust Claim Two and the Court agrees with Respondent that
the claim is subject to an anticipatory procedural bar and should be deemed procedurally
defaulted. Because Petitioner fails to overcome the procedural default, the Court denies
habeas relief on Claim Two.
III.

Evidentiary hearing
In his petition and in his reply brief, Petitioner requests an evidentiary hearing. Dkt.

# 2, at 65; Dkt. # 20, at 44. “In deciding whether to grant an evidentiary hearing, a federal
court must consider whether such a hearing could enable an applicant to prove the
petition’s factual allegations, which, if true, would entitle the applicant to federal habeas
relief.” Schriro, 550 U.S. at 474. Because Petitioner procedurally defaulted Claim Two
24

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 25 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 643

and portions of Claim One and because § 2254(d) bars relief on the exhausted portion of
Claim One, the Court denies his requests for an evidentiary hearing. See id. (“[I]f the record
refutes the applicant’s factual allegations or otherwise precludes habeas relief, a district
court is not required to hold an evidentiary hearing.”); Smith v. Aldridge, 904 F.3d 874,
886 (10th Cir. 2018) (noting that a federal court reviewing a § 2254 petition “can only
order evidentiary hearings if the petitioner meets the requirements in both §§ 2254(d) and
(e)(2)”); Thacker v. Workman, 678 F.3d 820, 836 (10th Cir. 2012) (“Because, however,
Thacker’s [habeas] claim is procedurally barred, the district court did not err in failing to
conduct an evidentiary hearing.”).
CONCLUSION
Based on the foregoing analysis, the Court concludes that Petitioner has not
established that he is in custody in violation of the Constitution or laws or treaties of the
United States. 28 U.S.C. § 2254(a). The Court therefore denies his petition for a writ of
habeas corpus. The Court also denies Petitioner’s requests for an evidentiary hearing.
Certificate of Appealability
Rule 11, Rules Governing Section 2254 Cases in the United States District Courts,
requires a district court “issue or deny a certificate of appealability when it enters a final
order adverse to the [petitioner].” The district court may issue a certificate of appealability
(COA) “only if the [petitioner] has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). When the district court denies a habeas
petition by rejecting the merits of a petitioner’s constitutional claims, the petitioner must
show “that reasonable jurists would find the district court’s assessment of the constitutional
25

Case 4:16-cv-00159-TCK-FHM Document 21 Filed in USDC ND/OK on 03/14/19 Page 26 of 26
Appellate Case: 19-5033

Document: 010110162059

Date Filed: 05/01/2019

Page: 644

claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). However,
when the district court denies the habeas petition on procedural grounds, the petitioner must
show both “[1] that jurists of reason would find it debatable whether the petition states a
valid claim of the denial of a constitutional right and [2] that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.” Id.
For these reasons discussed in the analysis section of this opinion, the Court finds
that Petitioner cannot make the showings necessary to obtain a certificate of appealability
as to either of his habeas claims. The Court therefore declines to issue a certificate of
appealability as to either claim.
ACCORDINGLY, IT IS HEREBY ORDERED that:
1.

The Clerk of Court shall note the substitution of Rick Whitten, in place of Jason
Bryant, as party Respondent.

2.

The petition for a writ of habeas corpus (Dkt. # 2) is denied.

3.

Petitioner’s requests for an evidentiary hearing are denied.

4.

A certificate of appealability is denied.

5.

A separate Judgment shall be entered herewith.

26

EXHIBIT 3:
Summary Opinion (Oklahoma Court of Criminal Appeals)

Appellate Case: 19-5033

Document: 010110183898

Date Filed: 05/01/2019

Page: 44

Sealed

Appellate Case: 19-5033

Document: 010110183898

Date Filed: 05/01/2019

Page: 45

Sealed

Appellate Case: 19-5033

Document: 010110183898

Date Filed: 05/01/2019

Page: 46

Sealed

Appellate Case: 19-5033

Document: 010110183898

Date Filed: 05/01/2019

Page: 47

Sealed

Appellate Case: 19-5033

Document: 010110183898

Date Filed: 05/01/2019

Page: 48

Sealed

Appellate Case: 19-5033

Document: 010110183898

Date Filed: 05/01/2019

Page: 49

Sealed

Appellate Case: 19-5033

Document: 010110183898

Date Filed: 05/01/2019

Page: 50

Sealed

Appellate Case: 19-5033

Document: 010110183898

Date Filed: 05/01/2019

Page: 51

Sealed

